U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Vernon D. Nelson v. United States of America
S.Ct. No. 21-5352
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 9,
2021, and placed on the docket on August 12, 2021. The government’s response is due on
September 13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 13, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5352
NELSON, VERNON D.
USA

KATHRYN SHEPHARD
ASSISTANT FEDERAL PUBLIC DEFENDER
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002
713-718-4600
KATHRYN_SHEPHARD@FD.ORG

